                       AUDIT OF SBA’S PLANNING AND ASSESSMENT
                                  FOR IMPLEMENTING
                         PRESIDENTIAL DECISION DIRECTIVE 63

                                        AUDIT REPORT NO. 1-09

                                              MARCH 26, 2001




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be released
to the public or another agency without permission of the Office of Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416



                                                                    AUDIT REPORT
                                                          Issue Date: March 26, 2001
                                                          Number: 1-09


To:            Lawrence E. Barrett, Chief Information Officer


From:          Robert G. Seabrooks, Assistant Inspector General for Auditing

Subject:       Audit of SBA’s Planning and Assessment for Implementing Presidential Decision
               Directive 63

        As part of a government-wide initiative, sponsored by the President’s Council on
Integrity and Efficiency (PCIE) and Executive Council on Integrity and Efficiency (ECIE), we
completed the second of four planned audits of SBA’s critical infrastructure protection program.
The first audit covered SBA’s planning and assessment activities for protecting its critical,
cyber-based infrastructure. This audit covered the planning and assessment activities for
protecting the critical, physical (non-cyber-based) infrastructure. The third and fourth audits will
address implementation activities, i.e., risk mitigation, emergency management, interagency
coordination, resource and organization requirements, recruitment, education and awareness.

                                         BACKGROUND

         Presidential Decision Directive 63 (PDD 63), issued in May 1998, calls for a national
effort to assure the security of the United States’ critical infrastructures. Critical infrastructures
are the physical and cyber-based systems essential to the minimum operations of the economy
and government. They include, but are not limited to, telecommunications, banking and finance,
energy, transportation, and essential government services. PDD 63 requires every department
and agency of the Federal Government to develop and implement a plan for protecting its own
critical infrastructure – also known as minimum essential infrastructure (MEI).

         The Critical Infrastructure Assurance Office (CIAO), an interagency office established to
assist in the development of a national plan for protecting the country’s critical infrastructure
defines MEI as “the framework of critical organizations, personnel, systems, and facilities that
are absolutely required in order to provide the inputs and outputs necessary to support the core
processes, essential to accomplishing an organization's core mission as they relate to national
security, national economic security or continuity of government services.”
       SBA’s Computer Security Program Manager, who reports to the Chief Information
Officer, has been designated the Critical Infrastructure Assurance Officer with overall
responsibility for protecting SBA’s critical infrastructure.

                                 RESULTS OF PRIOR AUDIT

         In September 2000, we reported that SBA had made significant progress toward
implementing key aspects of PDD 63, and that it needed to (1) complete the identification of its
critical infrastructure, (2) perform vulnerability assessments, (3) complete remedial plans, (4)
update the Critical Infrastructure Protection Plan, (5) develop a multi-year funding plan, and (6)
include infrastructure assurance in its strategic planning and performance measurement
framework.

        In October 2000, SBA revised its Critical Infrastructure Protection Plan and took other
steps to address these recommendations. These actions, however, focused on the Agency’s
cyber-based infrastructure, not the physical (non-cyber-based) infrastructure.

                      OBJECTIVES, SCOPE AND METHODOLOGY

         The objective of this audit was to determine whether SBA’s planning and assessment
activities for protecting its critical, physical infrastructure meet the requirements of PDD 63. To
accomplish this, we reviewed the Agency’s Critical Infrastructure Protection Plan (CIPP) and
related material, and interviewed SBA personnel associated with these products. We conducted
the review following guidance provided by the PCIE / ECIE working group on critical
infrastructure assurance. That guidance incorporated criteria from PDD 63, “The National Plan
for Information Systems Protection,” various Executive Orders and circulars, GAO, and relevant
laws and regulations. Fieldwork was performed at SBA’s Central Office in Washington, DC
from January to March 2001. The audit was conducted in accordance with Government
Auditing Standards.

                                       AUDIT RESULTS

         SBA has continued making progress toward implementing PDD 63 requirements, but its
focus has been on protecting the Agency’s critical, cyber-based infrastructure. To fully comply
with PDD 63, the Agency needs to expand its infrastructure protection efforts to address its
critical, physical infrastructure.

Efforts to Date Have not Focused on Physical MEI

        SBA’s Critical Infrastructure Protection Plan (CIPP), revised in October 2000, focuses on
protecting the Agency’s cyber-based infrastructure; the plan identifies mainframe computer
systems, and Local and Wide Area Networks as the critical, cyber-based assets supporting the
five identified Minimum Essential Critical Programs. The CIPP does not address the physical
assets (e.g. personnel and facilities) supporting these Minimum Essential Critical Programs. The
focus on cyber-based systems was primarily due to PDD 63's emphasis on such systems. The
Agency does, however, recognize the need to address physical MEI and has started to



                                                 2
concentrate its efforts in that direction. In addition, many of the activities needed for protection
of the critical, physical infrastructure (e.g. building security and fire prevention) are in place, but
have not been integrated into the critical infrastructure protection program.

        According to the Critical Infrastructure Assurance Office, a key first step in the process
of protecting critical infrastructure is “determining what information systems, data, and
associated assets – facilities, equipment, personnel – constitute the critical infrastructure….”
[emphasis added]. After the critical physical infrastructure is identified, vulnerability
assessments should be performed, remedial plans developed, resource requirements identified,
and policies and procedures updated as necessary.

Need to Coordinate with the General Services Administration

        PDD 63 and “The National Plan for Information Systems Protection” call for agencies to
establish effective CIP coordination with other applicable entities. Protection of SBA’s physical
infrastructure, in particular, requires coordination with the General Services Administration
(GSA). This is because, while SBA is responsible for protecting its physical infrastructure, GSA
is responsible for the security of the Federal and leased buildings in which SBA operates.
Because SBA’s PDD 63 efforts to date have not focused on the physical infrastructure, the
Agency has yet to coordinate with GSA. Without effective coordination, the effectiveness and
efficiency of SBA’s infrastructure protection program may be diminished by either non-
performance or duplication of key functions.

Recommendations:

We recommend that the Chief Information Officer ensure that the Chief Infrastructure Assurance
Officer:

1.     Revise the CIPP to address protection of the Agency’s physical MEI. The revised plan
       should provide milestones and responsibilities for identification of physical MEI,
       performance of vulnerability assessments, development of remedial plans, determination
       of resource requirements, and updating of policies and procedures as necessary.

2.     Coordinate physical infrastructure protection efforts with the General Services
       Administration.

                                  SBA Management’s Comments

        SBA’s Chief Information Officer agreed with the recommendations and stated that his
office has already taken steps to address the issues. The Chief Information Officer’s response is
included as Attachment 1.

                       OIG Evaluation of SBA Management’s Comments

       The Chief Information Officer’s comments are responsive to our recommendations.




                                                   3
                                            ***
        The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division based upon the auditor’s testing of the Agency’s Critical
Infrastructure Protection Plan and related materials. The findings and recommendations are
subject to review and implementation of corrective action by your office following the
existing Agency procedures for audit follow-up and resolution.

        Please provide your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet”, and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7204.


Attachments




                                               4
                                                                                                                          Attachment 2


                                                 REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies


Associate Deputy Administrator for Management and Administration ..................1

Office of the Chief Financial Officer
Attention: [FOIA Ex. 6]..........................................................................................1

General Counsel.......................................................................................................2

U.S. General Accounting Office..............................................................................1




                                                                                                              FOIA Ex. 6
